21-542

8S

ms

\

Supreme Court, U.S.
FtLED

JUN 2 9 2021

IN THE
SUPREME COURT OF THE UNITED STATES

KUSHAWN MILES-EL

OFFICE OF THE CLERK

_ — PETITIONER

(Your Name)
vs.

MICHIGAN

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

SUPREME COURT OF THE STATE OF MICHIGAN__________
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

KUSHAWN MILES-EL #237011
(Your Name)

N6141 INDUSTRIAL PARK DRIVE
ALGER CORRECTIONAL FACILITY
(Address)
MUNISING, MICHIGAN 49862
(City, State, Zip Code)

hJ(ft
(Phone Number)

QUESTION(S) PRESENTED - *** CAPITAL CASE ***
I. WHETHER THE STATE COURT HAS DENIED PETITIONER
KUSHAWN MILES-EL ANY RIGHT, PRIVILEGE OR
IMMUNITY GUARANTEED HIM BY THE CONSTITUTION
AND LAWS OF THE UNITED STATES AND STATE OF
MICHIGAN.

1.

II. WHETHER PETITIONER KUSHAWN MILES-EL WAS DEPRIVED
OF HIS SIXTH AMENDMENT RIGHT TO COUNSEL BECAUSE OF
AN IRRECONCILIBLE CONFLICT BETWEEN HIMSELF AND HIS
TRIAL ATTORNEY CARL BOLDEN, JR..
III. WHETHER PETITIONER KUSHAWN MILES-EL WAS DENIED
HIS SIXTH AMENDMENT RIGHT TO THE ASSISTANCE....OF
COUNSEL FOR HIS DEFENSE.
IV. WHETHER PETITIONER KUSHAWN MILES-EL WAS DEPRIVED
OF HIS LIFE AND LIBERTY WITHOUT DUE PROCESS OF LAW
IN VIOLATION OF THE FOURTEENTH AMENDMENT; WHERE THE totff
FAILED TO CONDUCT A "COMPETENCY HEARING", AFTER
PETITIONER’S COURT ORDERED PSYCHOLOGICAL 'EXAMINATION

V. WHETHER PETITIONER WAS DENIED HIS RIGHT TO BE
PRESENT AT ALL “CRITICAL STAGES" OF HIS CRIMINAL
CAPITAL CASE PROCEEDINGS; IN PARTICULAR THE JANUARY
28, 19$4 HEARING HELD ON HIS TRIAL COUNSEL'S MOTION
TO WITHDRAW AS COUNSEL, IN VIOLATION OF THE DUE
PROCESS AND EQUAL PROTECTION CLAUSES.

1

TABLE OF AUTHORITIES CITED

CASES
BISHOP v. UNTIED STATES, 350 U.S. 951 (1956).................
ERETHT v ABRtWBCN 507 US. 619; 629 (1993) ...............
CAUFOMAv. GREEN, 399 U.S. 149, 176 (1970)...............
CRCNICv. UNTIED STATES, 466 U.S. AT 659 (1984)..........
CRCEEv. MISSOURI, 420 U.S. 162, 95 S.Ct. 896 (1975)...
mns v. HOT, 469 U.S. 387 (1985)............. ..........
FAFETIAv. CAUFCENIA, 422 U.S. 806, 819-820..-...........
GIEKN v. VMNKRICHT, 372 U.S. 335 (1963)........... .
GLASSER v. UNTIED SIAIES, 315 U.S. 60, 69-70./...........
HICKS v. CKLAKM, 447 U.S. 343, 346 (1980)..................
HOUSE v. mo, 324U.S. 42, 46..................... ................
KBSfROTv. Sim, 482 U.S. 730, 745 (1987)..............
WPNv. MERISON. 477 U.S. 365 (1986)...............
MWv. LOUISIANA, 138 S.a. 1500 (2018)..................
•. * •... *
MLv. ALABAMA,/287 U.S. 45, 52, 58 (1932).,........
SJKDER v. MESETHEnES, 291 U.S. 97, 105406 (1934)------UNTIED SPOTS V. G&NCN, 470 U.S. 522 526, 105 S.Ct. 1482 (1985)(ITR CURIAM)
VASHINGICNv. TEXAS, 388 U.S. 14, 17-18 (1967)................................
ERAOEY v. HEMff, 510 F.3D 1093 (9IH CJR.)...... • •••<.......................................

^“sTn’oTulW™- 19?0)......... ............

U.S. OW. AFE© XIV......................
U.S. OW. A^VI................ .....
U.S. ONST. Am© V...............
U.S. OW. ART. VI...,........... .
MICH ONST. 1963, AEUTCIE 1, §20.. ..
MICH CC^r. 1963, ARTICLE 1, §17....
MICH aw. 1963, ARHOE 1, §13...;
MICH aw. 1963, ARTICLE 1, §2......
28U.S.C. §2254............................
MX 750.316
MX 750.227b...
MX 750.84......
MX 600.4307...
MX 600.4304(2)
MR 6.500........
MR 3.303(A)...

....

PAGE NUMBER
11
.9
10
9
11
78
10
.9
...7
7, 14
7
12, 13
.7
10
..7
..12, 13
13
,...10
.,..13, 14
7,9
3, 9, 10, 12-15
...........3, 7-10
13

• «•••••• •• • •

•« »••

•••

3,8
3 8, 12, 13
3,9
3
5
4
4
,4
6
6
5
6

OTHER
CtmtADO RULES CF CRIMINAL FROCEEtRE 44(d)

14

TABLE OF CASES CITED, PAGE 2 OF 2
8
DANIELS v. WOODFORD 428 F.3D 1181 (9TH CIR. 2005).......................
8, 9
PLUMLEE v. SUE DEL PAPA, 426 F.3D 1095 (9TH CIR. 2005)........ i.
13
HALE v. GIBSON, 277 F.3D 1298, 1311-1312 (10TH CfR. 2000)..........
13
GREEN v. JOHNSON, 116 F.3D 1115 (5TH CIR. 1997)...........................
11
UNITED STATES v. JOHNS, 728 F.2D 953 (7TH CIR. 1984)..................
13, 14
UNITED STATES v. OLES, 994 F.2D 1519 (10TH CIR. 1993)..............
8
UNITED STATES v. VILES, 906 F.2D 1122, 1130-1131 (6IH CIR. 1990)
8
WILSON v. MINTZES, 761 F.2D 275, 280 (6TH CIR. 1985)..................
11
PEOPLE v. BELANGER, 73 MICH APP 438 (1972)...................................
9
PEOPLE v. CHARLES 0. WILLIAMS, 386 MICH 565 (1972)........
13, 14
PEOPLE v. GARDENAS, 411 P.3D 956, 961-963 (COLO APP 2015).........
...12
PEOPLE v. HAYES, 424 MICH 271, 282 (1985).............................. ....
PEOPLE v. MEDCOFF, 344 MICH 105 (1955), OVERRULED ON OTHER GROUNDS PEOPLE v. MORGAN, 400
12
MICH 527............... .......... ........................................
PEOPLE v. ROSSART, 99 MICH APP 66, 74 (1980).........
PEOPLE v. RUSSELL, 471 MICH 182, 187 (2004)..........
PINKY v. STATE, 350 MD 201, 209 (1998)...................
PEOPLE v. SHAHIDEH, 277 MICH AP 111, (HN10)(2007).
SMITH v. STATE, 724 S0.2D 280, 310-312 (MISS 1998)
PEOPLE v. WILLIAMS, 470 MICH 634, 641 (2004)......

12
12
13
12
14
9

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
All parties do not appear in the caption of the case on the cover page, A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

MICHIGAN SUPREME COURT
MICHIGAN COURT OF APPEALS
WAYNE COUNTY 3RD CIRCUIT COURT OF MICHIGAN
WAYNE COUNTY PROSECUTOR
DANIEL J. RUST, APPELLATE COUNSEL
MICHIGAN ATTORNEY GENERAL* S OFFICE

RELATED CASES
PEOPLE OF THE STATE OF MICHIGAN v KUSHAWN MILES-EL,
,
WAYNE COUNTY CIRCUIT COURT NO. 93-10422-FC
Afrisp/* */
KUSHAWN MILES-EL v CHIPPEWA CORRECTIONAL FACILITY WARDEN, CONNIE HORTON
MICHIGAN COURT OF APPEALS NO. 352357
KUSHAWN MILES-EL v CHIPPEWA CORRECTIONAL FACILITY WARDEN CONNIE HORTON
MICHIGAN SUPREME COURT NO. 161748

TABLE OF CONTENTS
1

OPINIONS BELOW
JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4-6

REASONS FOR GRANTING THE WRIT

7-15

CONCLUSION

15

INDEX TO APPENDICES
APPENDIX A MICHIGAN SUPREME COURT MARCH 30, 2021, ORDER
APPENDIX A-l MICHIGAN COURT OF APPEALS MAY 19, 2020 ORDER
APPENDIX BJWIE Uf 2002, ORDER DENYING RELIEF FROM JUDGMENT

APPENDIX C JANUARY 28, 1994, MOTION HEARING TRANSCRIPTS
APPENDIX D OCTOBER 1, 1993, ORDER REQUIRING DEFENDANT TO UNDERGO EXAMINATION
RELATIVE TO A CLAIM OF INSANITY
APPENDIX E AFFIDAVIT OF RAYMOND DOCKERY
APPENDIX F
APPENDIX G

AFFIDAVIT OF BRENDA SANDERS
AFFIDAVIT OF JAMAAL HAILEY

.APPENDIX H AFFIDAVIT OF CHARLES CARTER
APPENDIX I

PAGE 1 OF PETITIONER'S PSI REPORT-EVALUATION AND PLAN

APPENDIX J

AFFIDAVIT OF LAGENA DOCKERY

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
to

The opinion of the United States court of appeals appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
to

The opinion of the United States district court appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ j is unpublished.
For cases from state courts:
The opinion of the highest state court to review the merits appears at
to the petition and is
Appendix A
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[p^is unpublished.
The opinion of the
appears at Appendix

court
to the petition and is

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
j^is unpublished.
1.

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______ jd/ft---------------[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
_________ , and a copy of the
Appeals on the following date:
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
x///t
(date) on
to and including-----------7
in Application No. —A—
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[V5v.For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix —A-----[ ] A timely petition for rehearing was thereafter denied on the following date:
_______jdffi__________ f and a copy of the order denying rehearing
appears at Appendix----------[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including
A
Application No.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Sixth Amendment to the United States Constitution provides in pertinent part:
"In all criminal prosecutions, the accused shall enjoy the right to have
compulsory process for obtaining witnesses in his favor; and to have the
[ * Assistance of Counsel for his Defense. T]ff
The Fourteenth Amendment to the United States Constitution provides in pertinent
part:
Section 1. [Citizens of the United States]"No State shall make or enforce any law which shall abridge the privileges
or immunities of citizens of the United States; nor shall any State deprive
any person of life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the
- laws.'*
Article 1, §2 of the Michigan Constitution of 1963 provides in pertinent part:
§2 Equal Protection.
Sec. 2. No person shall be denied the equal protection of the laws.
Article 1, §13 of the Michigan Constitution of 1963, provides in pertinent part:
§13 Conduct of suits in person or by counsel.
Sec. 13. A suitor in any court of this state has the right to prosecute or
defend his suit, either in his own proper person or by an attorney.
Article 1, §17 of the Michigan Constitution of 1963, provides in pertinent part:
§17 Due Process of Law; Fair Treatment at investigations.
Sec. 17. No person shall be deprived of life, liberty or property without
due process of law. The right of all individuals, to fair and just
treatment.
Article 1, §20 of the Michigan Constitution of 1963, provides in pertinent part:
§20 Rights of accused in criminal prosecutions.
Sec. 20, In every criminal prosecution, the accused shall have the right
to have compulsory process for obtaining witnesses in his or her favor; to
have the assistance of counsel for his or her defense; to have an appeal
as a matter of right; and as provided by law, when the trial court so
orders, to have the assistance as may be necessary to perfect and prosecute
an appeal.

STATEMENT OF THE CASE
Petitioner Kushawn Miles-EI was convicted of "Capital” First-Degree Premeditation
and Deliberated Murder by a Jury trial. He was sentence to serve Life Without
Parole in prison by the Recorder's Court of Detroit, Judge Thomas E. Jackson, in
Wayne County, Detroit, Michigan on May 3* 1994.
On October 7, 1993, In an Unrelated criminal case, Petitioner was sentenced by
another Recorder's Court of Detroit, Judge to undergo Psychiatric Treatment at the
Recorder's Court Psychiatric Clinic. (See Appendix-___ , attached). On October
1, 1993, Petitioner Miles-EI was ordered by trial court Judge Thomas E. Jackson to
undergo a ’'Psychiatric Evaluation" relative to a claim of Legal Insanity" at the
time of the Homicide; Diminished Capacity and Criminal Responsibility; and
Competence to Stand trial. At tKi Recorder's Court Psychiatric; Clinic.
(See
Petitioner Kushawn Miles-El's Affidavit and order, attached as Appendix-___, ___).
A psychiatric evaluation was conducted on Petitioner Miles-EI at the Recorder's
Court Psychiatric clinic. No report was ever filed with the Court or with defense
attorney Carl B. Bolden, Jr., and defense attorney never requested a
competency/insanity hearing and the trial court also failed to conduct a
competency/sanity hearing after Petitioner's court ordered psychiatric evaluation.
In November and December 1993, Petitioner filed several complaints against his
trial attorney Carl B. Bolden, Jr., alleging ineffective assistance, breakdown in
communications as well as other allegations against trial attorney Bolden with the
Michigan Attorney Grievance Commission, and trial judge Thomas E. Jackson and
requested the appointment of substitute counsel or to represent himself. (See
Appendix-__ ). On January 24, 1994, Trial Attorney Carl B. Bolden Jr., filed a
TfMotion To““Withdraw as Counsel”, due to TTAn Irreversible Breakdown in the
Attorney-Client Relationship" to" the "Extent that Counsel Could NO LONGER
On January 28, T994 a
________
ADEQUATELY REPRESENT the Defendant.;i (See Appendix-” f.
hearing was held on counsel; s motion to withdraw, 'without the presence of
Petitioner Miles-EI".
(See Appendix-____ ,. 1/28/94 Motion Hearing Transcripts
attached).
On January 28, 1994, (without Petitioner Present at the hearing), the trial judge
denied trial counsel's motion to withdraw and forced Petitioner Miles-EI to a
Capital Murder trial with an attorney that he was in conflict with.
Petitioner's counsel filed a Notice of an Insanity Defense, due to Voluntary
Intoxication, October 1, 1993. Trial Counsel did not investigate, the results of
Petitioner's psychiatric evaluation report, no witnesses were called on
Petitioner's behalf for his defense and no request was made by the trial attorney
for a competency hearing.
Petitioner Miles-El's Trial Attorney did not present any defense or theory of
defense relating to his legal insanity/voluntary intoxication defense, once the
prosecution rested, trial attorney Carl Bolden rested, depriving Petitioner MilesEI of his right to the assistance of counsel for his defense and his right to
present a complete defense.
On April 15, 1994, Petitioner Miles-EI was found guilty by a Jury of Capital
First-Degree Premeditated Murder, MCL 750.316; Assault with intent to do Great
Bodily Harm, MCL 750.84; and two (2) counts of Felony Firearm. MCL 750.227b.

STATEMENT OF THE CASE (page 3 of 3 continued)
the U.S. District Court for the Eastern District of Michigan. The Petition was
dismissed as barred by the statute of limitations in 2006.
In 2019 Petitioner filed a Verified Petition For A Writ of Habeas Corpus in
Michigan Court of Appeals pursuant to MCL 600.4304(2), MCL 600.4307 and MCR
3.303(A). The Michigan Court of Appeals denied the petition without reason or
explanation May 19, 2020. July 2020, Petitioner appealed the court of appeals
on an Application For Leave to Appeal in the Michigan Supreme Court. The Supreme
Court denied Petitioner's Application For Leave to Appeal, because they were not
persuaded by the questions presented on March 30, 2021. (See Order attached as
Appendix-A). Now Petitioner Kushawn Miles-El, in Pro Per/Se, seeks Certiorari in
this Honorable Court.

REASONS FOR GRANTING THE PETITION (Page 2 of

, continuation)

This Court has also held: That the denial of the effective assistance of
counsel does violates due process and when a defendant is forced by a State to
trial in such a way as to deprive him of the effective assistance or counsel the
Due Process Clause is also violated. See Powell v Alabama 287 U.S. 45, 52, 58
(1932); see also House v Mayo, 324 Ui’Sf* 42, 46 and Glasser v United States,315
U.S. 60, 69-70.
Petitioner Miles-El claims that he was denied his Sixth Amendment right to
counsel because of an irreconcilable conflict between himself and attorney Carl
Bolden, Jr. (See Appendix-B, attached).
Petitioner Miles-El describes his relationship with attorney Bolden as one
clouded by "an atmosphere of mistrust, misgivings and irreconcilable differences"
resulting from a Grievance Complaint filed with the Attorney Grievance Commission
against Attorney Bolden for Ineffective Assistance of Counsel; Breakdown in the
Attorney-Client Relationship; Breakdown in the Communications and conflicting
interests. The breakdown of Miles-El's relationship with Bolden began with Bolden
refusing to visit him in the county jail, consult and communicate with him,
failing to investigate witnesses and failing to investigate the results of the
psychiatric evaluation and Miles-El's grievance complaint for investigation
against Bolden.
Petitioner claims that an irreconcilable conflict existed between him and his
trial attorney Bolden and that it rose to the level of breakdown described in
Wilson v Mintzes, 761 F.2d 275, 280 (6th Cir. 1985); United States v. Viles, 906
F.2d 1122, 1130-1131 (6th Cir. 1990); See also Brown v Craven, 424 Ef>2d 1166,
1169 (9th Cir. 1970); Where a court "compels one charged with a grievous crime to
undergo a trial with the assistance of an attorney with whom he has become
embroiled in an irreconcilable conflict [it] deprives him of the effective
assistance of any counsel whatsoever." See Brown, supra, 424 F.2d at 1170.
Federal Circuit Court of Appeals have applied the constructive denial of
counsel doctrine to cases where the defendant has an irreconcilable conflict with
his counsel, and the trial court refused to grant a motion for substitution of
counsel•
Therefore the trial court's denial of counsel's motion to withdraw denied
Petitioner Miles-El of the Effective Assistance of Counsel at Trial, and his right
to counsel and his right to a fair trial. In violation of the Due Process Clause
of the Fourteenth Amendment to the United States Constitution and Article 1, §17,
20 of the Michigan Constitution of 1963. See Also Daniels v Woodford, 428 Ef!3d
1181 (9th Cir. 2005); Plumlee v. Sue Del Papa, 426 F.3d 1095 (9th Cir. 2005).
II. PETITIONER KUSHAWN MILES-EL WAS DEPRIVED OF HIS SIXTH AMENDMENT
RIGHT TO COUNSEL BECAUSE OF AN IRRECONCILABLE CONFLICT BEIWEEN
HIMSELF AND HIS TRIAL ATTORNEY CARL BOLDEN, JR...
This Court [has] explained that a constructive denial of counsel occurs when
the defendant is deprived of "the guiding hand of counsel." See Powell v. Alabama,
supra, 287 U|[S. at 69, 53 S.Ct. 55, 64 (1932). This brand of Sixth Amendment
violation has occurred in cases involving the absence of counsel from the
courtroom, conflicts of interests between defense counsel and the defendant, and

REASONS FOR GRANTING THE WRIT (Page 3 of

, contuation)

official interference with the defense. In addition, constructive denial will be
found when counsel fails "to subject the prosecution's case to meaningful
adversarial testing..." See Cronic v. United States, 466 UUSU at 659. Accordingly
when the defendant can establish that counsel was not merely incompetent but
inert, prejudice will be presumed. See also Plumlee, supra 426 F.3d at 1103;
Brown v. Craven, supra 424 F.2d at 1170. See also People v. Charles Of1 Williams,
386 Mich 565 (1972). See also Brecht v. Abrahamson, 507 U.S. 619, 629 (1993).
III. PETITIONER KUSHAWN MILES-EL WAS DENIED HIS SIXTH AMENDMENT
RIGHT TO THE ASSISTANCE.. .OF COUNSEL FOR HIS DEFENSE.
Petitioner Miles-El claims that due to a conflict of interest and a breakdown
in the attorney-client relationship that trial counsel deprived him of his Sixth
Amendment Right to the Assistance of Counsel for his Defense and "Compulsory
Process for Obtaining Witnesses, (a) Brenda Sanders; (b) Lagena Dockery; (c)
Jamaal Hailey; (d) Raymond Dockery; (e) Leon Wiley, who were available to testify
in his favor in regards to Petitioner’s Legal Insanity/Voluntary Intoxication
Defense to First Degree Premeditated Murder. (See Witnesses Affidavits Attached
as Appendix-___, ___, __, _, ____). Trial Counsel Bolden failed or refused
to investigate the results of the psychiatric evaluation, conducted on Petitioner
Miles-El at the Recorder's Court Psychiatric Clinic for his Competency/Sanity to
stand trial.
Attorney Bolden also failed or refused to request a "Competency
/Sanity Hearing", for a determination of Petitioner's Mental Condition/Status and
failed or refused to seek an independent psychiatric evaluation and present expert
testimony to support Petitioner's Legal Insanity/Involuntary Intoxication Defense,
which at the time of Miles-El’s trial was a valid defense to First Degree
Premeditated Murder, a Specific Intent crime and had counsel assisted Miles-El
with his defense by presenting expert testimony, psychiatric reports, call
witnesses to testify as to his state of mind at the party on the night of the
homicide, the evidence would have been enough to negate the specific intent
elements of Premeditation and Deliberation.
"In all criminal prosecutions, the accused shall enjoy the right to....have the
assistance of counsel for his defense." U.S. CONST. AM XIV; Article 1, §13 of the
Michigan Constitution of 1963. The right to counsel under the Sixth Amendment is
made applicable to the States pursuant to the Due Process Clause of the Fourteenth
Amendment. See People v Williams. 470 MICH 634, 641 (2004).
(Citing Gideon v.
Wainwright, 372 U.S. 335 (1963)).
Under the United States and Michigan
Constitution "In every prosecution; the accused shall have the right to...have
the assistance of counsel for his or her defense..." Mich Const. 1963, Art. 1,
§20. Gideon, supra made clear that the indigent are constitutionally entitled to
be represented by counsel when prosecuted for a crime by the State, even though
they lack the financial means to hire an attorney, and that the' State has an
obligation to provide them counsel. See Gideon, supra, Id. at 344. In Gideon the
Supreme Court held:
The Assistance of Counsel is ore of the Safggpatds of the Sixth Ansndient deemed necessary to
ensure ElrdenEntal Hinan Rights of Life and Liberty...The Sixth Ansndnait Stands as a constant
Mmnitian that if the Ganstittitiaial Safeguards it pcwides be "Last", "Justice will not.. .be
dane. Id.
The Sixth Amendment requires not merely the provisions of counsel to the
accused, but "Assistance" which is to be for his Defense." Thus, "the Core
Purpose of the Counsel Guarantee was to assure 'Assistance' at trial when the
accused was confronted with both intracacies of the law and the advocacy of the
public prosecutor." If no "Actual Assistance" "for the accused's Defense is

STATEMENT OF THE CASE (Page 2 of 3, continued)
Petitioner filed a timely request for appointment of appellate counsel on May 6,
1994. On June 24, 1994, Daniel J. Rust was appointed to represent Petitioner
Miles-El on his Direct Appeal as of Right and the trial court ordered the
transcripts to be transcribed and produced for appellate counsel.
Appellate counsel Rust visited Petitioner Miles-El at the Standish Maximum
Facility in August 1994.
During that interview, Miles-El informed appellate
counsel, that he wanted to raise ineffective assistance of trial counsel for (a)
Failing to provide assistance for his defense; (b) For depriving him from
presenting a complete defense; (c) Failing to call witnesses; (d) Trial Court
abusing its discretion denying counsel's motion to withdraw; (e) trial court's
denial of counsel's motion to withdraw denied him effective assistance of counsel
at trial; (f) trial court's denial of counsel's motion to withdraw, denied him of
his right to conflict free representation ; (g) trial court's denial of counsel's
motion to withdraw denied him a fair tria; (h) trial court's denial of counsel's
motion to withdraw denied him of his right to counsel; (i) trial court deprived
him of his right to be present at the January 28, 1994 Motion Hearing on trial
counsel's motion to withdraw which was a "critical stage." Appellate counsel Rust
refused Petitioner's request to raise these important and obvious constitutional
and structural errors. Petitioner Miles-El also sent several letters to appellate
counsel Rust requesting that he raise the issues discussed with him in person in
1994 and 1995 and appellate counsel still refused and failed to raise the
important and obvious claims on his direct appeal as of right. (See Petitioner
Miles-El's Affidavit, attached as Appendix-___ ).
On November 17, 1994, Appellate counsel Daniel J. Rust, filed an "Untimely Appeal
Brief^(waiving Miles-El's right to Oral Argument), without having a complete or
entire Lower Court Records or Transcripts before filing his opening brief on
direct appeal. Appellate counsel raised three (3) Issues on Miles-El's Direct
Appeal. (1) Defendant's Statement was improperly submitted into evidence; (2)
There was insufficient evidence to convict Defendant of the charged offense; and
(3) Trial court failed to instruct the jury on lesser included offense of
Petitioner Miles-El's conviction was affirmed by the
Voluntary Manslaughter.
Michigan Court Appeals, April 26, 1996, under Court of Appeals no. 176779.
November 2001, Petitioner Miles-El, filed his first MCR 6.500 Motion For Relief
from Judgment, raising for the First Time: (a) Trial Court abused its discretion;
(b) Petitioner was denied his right to counsel; (c) Petitioner was denied his
right to conflict free representation; (d) Petitioner was denied his right to a
fair trial; (e) Petitioner was denied his right to the effective assistance of
counsel; (f) Petitioner was denied his right to present a complete defense; (g)
Petitioner was denied the effective assistance of tria and appellate counsel; and
other issues were raised for the first time. Petitioner also filed a separate
motion requesting for an Evidentiary "Ginther" Hearing on his ineffective
assistance of counsel claims as required under People v Ginther. The trial court
denied Petitioner's motion for relief from judgment and his motion for an
evidentiary hearing on 6/11/02. (See Appendix). Petitioner filed subsequent
Applications for Leave to Appeal in the Michigan Court of Appeals and Michigan
Supreme Court and a request for an evidentiary hearing and was denied in both
courts.
In 2005, Petitioner filed his first §2254 Petition For Writ of Habeas Corpus in

REASONS FOR GRANTING THE PETITION

Petitioner Kushawn Miles-El conviction and capital sentence under Michigan Law,
was obtained without Due Process of Law by the Constitutional and Structural
Errors committed by: (1) The Trial Court abasing its authority, when it denied
trial counsel*s motion to withdraw as counsel and depriving Petitioner Miles-El of
(a) His Right to Conflict-Free Representation; (b) The effective assistance of
counsel at trial; (c) His Right to be Present at the January 28, 1994 Motion
Hearing on counsel's motion to withdraw which was a "critical stage”; (d) The
Right to Counsel; (e) a Fair Trial; (2) Appellate Counsel failing to provide
Petitioner Effective Assistance of Counsel on Direct Appeal as of Right, by
failing to request, obtain and review the complete or entire Lower Court Records
and Transcripts before filing an "untimely appeal brief" on Petitioner's behalf,
The errors
depriving Miles-El of Adequate and Effective Appellate Review,
committed by the Trial Court and Appellate Counsel on Direct Appeal deprived
Petitioner Miles-El of a "Fundamentally Fair Trial and Direct Appeal which
resulted in a verdict and result lacking in Reliability. Because
Petitioner * s
Trial and Direct Appeal as of Right was not held in Accord with the Due Process
Clause of the Fourteenth Amendment.
Petitioner Miles-El's conviction and capital sentence under Michigan Law was
obtained in violation of His Sixth Amendment Right to: (1) The 'Assistance of
Counsel For His Defense* by Trial Counsel First stating in his motion to withdraw
that there was an 'irreversible breakdown in the attorney-client relationship to
the extent that he could no longer adequately represent the Defendant; Second by
failing to investigate the result of the psychiatric evaluation report relating to
Petitioner's Competence to Stand Trial and His Sanity at the time of the Homicide
and request a competency/sanity hearing; Third by depriving Petitioner Miles-El of
his right to present a complete defense, by not investigating, preparing and
presenting his only valid defense of Legal Insanity due to Voluntary Intoxication,
which was a defense to a specific intent crime of First Degree Premeditation and
Deliberated Murder, instead trial counsel abandoned Petitioner's entire defense
and/or theory of defense altogether and rested without presenting any defense
whatsoever: (2) Compulsory Process for obtaining available witnesses in favor of
Petitioner's defense of voluntary intoxication; (3) His Right to Counsel; (4)
His Right to the effective assistance of counsel at trial; (5) His right to
conflict free representation. Trial counsel deficient performance and serious
errors undermined the confidence of and the reliability of a fair trial which
undermined the confidence of and the reliability of a fundamentally fair trial
resulting in a verdict lacking in reliability. See Kimmelman v Morrison, 477 Ut'SI *
365 (1986); See also Evitts v Lucey, 469 U.S. 387 (1985); Powell v Alabama, 287
U.S. 45, 52, 58 (1932; House v Mayo, 324 U.S. 42, 46; Glasser v United States, 315
U.S. 60, 69-70.
I. THE STATE COURT HAS DENIED PETITIONER KUSHAWN MILES-EL OF RIGHTS
PRIVILEGES OR IMMUNITIES GUARANTEED HIM BY THE CONSTITUTION AND
LAWS OF THE UNITED STATES AND STATE OF MICHIGAN.
This Court has held that State Defendants has a federal constitutional Due
Process right not to be deprived of his life and liberty except in accordance with
the laws of the State and that federal right was violated when state rules applied
to others were not applied to Petitioner Miles-El. See Hicks v. Oklahoma, 447
UlIS! 1 at 343, 346 (1980).

REASONS FOR GRANTING THE WRIT, (Page 4 of
provided, then the Constitutional Guarantee has been violated. To hold otherwise
r,could convert the appointment of counsel into a sham and nothing more than a
formal compliance with the Constitutions Requirement that an accused be given the
Assistance of Counsel. The Constitution's Guarantee of Assistance of Counsel
cannot be satisfied by mere formal appointment." The
substance
of
the
Sixth Amendment also guarantees the accused a "compulsory process for obtaining
witnesses in his favor." This right is also, "Fundamental and essential to a fair
trial," which applies in both State as well as federal courts, see Washington v.
Texas, 388 U S. 14, 17 18 (1967).
The right to present a defense combines
together with the right to confront adversarial witnesses, and thus has
constitutionalized "the right to a defense as this Court knows it." See also
California v. Green, 399 QMS. 149, 176 (1970).
The right to offer the testimony of witnesses, and to carpel their attendance, if necessary,
is in plain terms the right to preset a defense, the ri^t to present the defendant's version
of the facts as veil as the proportionvs to the jury so it nay decide vhere the truth lies.
Just as an accused has the ri^nt to confront the prosecution's witnesses for the purpose of
challsging their testimony, he las the right to present his own witnesses to establish a
defense Ths ri^nt is a fundanental elsnsit of Die Process of law. See Mrdigton v. Ttexas,
388 U.S. at 19.
Due Process of Law is the basic constitutional right to be heard in one's own
defense at a fair trial.
Ibis means that a defendant has an unquestionable
right to present a defense, the right to present the defendant's version of the
fact." Id. at 19.
Petitioner's Sixth Amendment right to the assistance of counsel for his only
defense was violated by trial counsel's failure to investigate, prepare and
present Miles-El's Legal Insanity/Voluntary Intoxication Defense to First Degree
Murder, investigate the psychiatric evaluation report, present expert testimony,
call multiple witnesses in support of defense caused Petitioner Miles~El to a
serious injustice that infected the entire trial itself making the verdict in his
capital murder trial unreliable .MzCcy, 138 S.Ct. 1500 (2018); Facetta, 422 U.S. 806, 819-20.
IV. WHETHER PETITIONER KUSHAWN MILES-EL WAS DEPRIVED OF HIS LIFE AND LIBERTY
WITHOUT DUE PROCESS OF LAW IN VIOLATION OF THE FOURTEENTH AMENDMENT; WHERE
THE TRIAL COURT FAILED TO CONDUCT A "COMPETENCY/SANITY HEARING", AFTER
PETITIONER'S COURT ORDERED PSYCHOLOGICAL EXAMINATION.

Petitioner Miles-El claims that the trial court's failure to conduct a
competency hearing and make an inquiry into his competence to stand trial
deprived him of his constitutional right to a fair trial. Petitioner did not
Trial Counsel on several
waive the defense of incompetence to stand trial,
occasions insisted that the Petitioner Miles-El's sanity was an issue. (See Order
for psychiatric evaluation, attached as Appendix-___). Petitioner states that he
was entitled to a hearing on the issue of his competence/sanity to stand trial.
Petitioner asserts, that on an unrelated criminal case that he was ordered to
''undergo psychiatric treatment'' at the Recorder's Court Psychiatric Clinic,
October 7, 1993. (See Appendix, attached).
Petitioner was also ordered by
Recorder's Court judge Thomas E. Jackson, to undergo a psychiatric evaluation, on
).
October 1, 1993, relative to a claim of insanity.
(See AppendixtWhile Petitioner was awaiting trial on first degree murder charges, the Petitioner

REASONS FOR GRANTING THE WRIT(Page 5 of___, continuation)
was placed on suicide watch multiple times in the Wayne County Jails psychiatric
ward, (See Affidavit of Kushawn Miles-El, attached as Appendix- ) and his trial
counsel and trial judge was made aware that Petitioner was placed on suicide
watch.
Petitioner was eventually had a psychiatric evaluation at the Recorder’s Court
Psychiatric Clinic. No Report was ever filed and Trial Counsel failed or refused
to investigate the results of Petitioner’s psychiatric evaluation and the trial
court failed to conduct a competency hearing after Petitioner’s court ordered
psychiatric evaluation.
This Court has held, the conviction of an accused while he is legally
incompetent violates Due Process and State procedures must be adequate to protect
this right. See Bishop v United States, 350 UI!S<! 961 (1956); Drope v Missouri, 420
U.S. 162; 95 Sf'Ct. 896 (1975). In Drope v. Missouri, supra, this Court held: That
the defendant's due process right to a fair trial was violated by the trial
court’s failure to suspend trial until the defendant’s competence could be
determined. Although trial counsel had not made a proper pre-trial motion for a
competency hearing and the psychiatric report which had been prepared for trial
did not clearly suggest the defendant was incompetent, the Drope Court nonetheless
found the trial court had a duty to conduct an evaluation of competency based
events during trial such as attorney's comments concerning Petitioner's mental
state and the testimony concerning defendant’s bizarre behavior and psychiatric
history. The Drope Court expressed doubt that the defendant’s failure to move for
a competency hearing could ever operate to waive his due process rights. Id. at
176. See Also United States v. Johns, 728 F.2d 953 (7th Cir. 1984). Under
Michigan Law the trial court must render a separate finding of competency when
evidence of incompetency is presented. See People v. Belanger, 73 Mich App 438
(1972),M
Following an Michigan State Court trial, the Petitioner was found guilty of
First Degree Premeditated and Deliberated Mirder and sentenced to Life without
Parole imprisonment. Although the Petitioner, an indigent represented by a court
appointed attorney, (who filed a motion to withdraw based on an irreconcilable
breakdown in the attorney client relationship and a conflict of interest), had
failed to demand a hearing as to Miles-El’s competency to stand trial, his trial
counsel contended on more than one occasion throughout trial that the Petitioner
Miles-El was insane both at the time of the homicide, and at the time of trial and
that there were several witnesses who would have testified as to Petitioner's
state of mind at the time of the homicide and the fact that he was already
undergoing court ordered psychiatric treatment from an unrelated case, and him
being on suicide watch on more than one occasion in the wayne county jail, in
support of his being insane. Trial counsel failed to investigate the results of
the psychiatric evaluation and present expert testimony and other evidence and
witness testimony and the court's failure to conduct own its own an inquiry into
petitioner’s mental state, Petitioner’s insanity defense and insanity at the time
of trial was not presented or investigated, Petitioner was convicted.
The
counsel Daniel J. Rust who was appointed to represent Petitioner on his Direct
Appeal as of Right, refused to investigate this claim and raise it for appellate
review in Petitioner's appeal brief. The Michigan Court of Appeals and Michigan
Supreme Court affirmed his conviction.
Petitioner claims that he was convicted
in an unduly hurried trial (with an attorney who labored under conflicts of
interest and a breakdown in the attorney client relationship); without a fair

REASONS FOR GRANTING THE WRIT (Page 6 of

, continuation)

opportunity to obtain expert psychiatric and other witnesses testimony and without
sufficient development of the facts on the issue of his competence to stand trial.
Petitioner was denied due process by the state's failure to conduct a hearing upon
his competency to stand trial.
Petitioner asserts that his constitutional rights were abridged by his failure
to receive an adequate hearin on his competence to stand trial, that he is
entitled have the writ granted and that he be discharged unless the State of
Michigan gives him a new trial within a reasonable time, because the facts before
the trial judge suggested not that Miles-El*s crime was an insane act but whether
they suggested he was incompetent to stand trial. Petitioner states that even
though his trial counsel phrased his questions and argument in terms of his
present insanity, this could interpret his language as necessarily placing in
issue the question of Petitioner Miles-El's mental competence to stand trial.
Counsel was simply borrowing the terminology of the relevant Michigan Statutes and
decisions.
Michigan law in effect at the time of Petitioner's trial
differentiated between lack of criminal responsibility and competence to stand
trial, but used "Insanity” to describe both concepts. See People v Shahideh, 277
Mich App 111 (HNlO) (50o7); People v. Rossart, 99 Mich App 66, 74 (1980)11 The
evidence raised a sufficient doubt as to Petitioner's competence to stand trial so
that he was deprived of due process of law under the Fourteenth Amendment and
Article 1, §17 of the Michigan Constitution of 1963, by the trial court's failure
to afford Petitioner a hearing on that issue. See also People v Hayes, 421 MICH
271, 282 (1985).
V. PETITIONER WAS DENIED HIS RIGHT TO BE PRESENT AT ALL "CRITICAL STAGES" OF
HIS CRIMINAL "CAPITAL CASE" PROCEEDINGS; IN PARTICULAR THE JANUARY 28, 1994
HEARING HELD ON'HIS" TRIAL "COUNSEL’S MOTION TO WITHDRAW AS COUNSEL, IN
VI0LATI0N0F THE DUE PROCESS AND EQUAL PROTECTION CLAUSES.
On January 24, 1994, Trial Counsel Carl B. Bolden, Jr., filed a motion to
withdraw, due to an "irreconcilable breakdown in the attorney-client relationsip"
to the extent that he could ["no longer adequately represent the defendant1']. On
January 28, 1994, the trial court conducted a hearing on counsel's motion to
withdraw, f"without Petitioner Miles-El being present at the hearing"].
See
(January 28, 1994 Motion Hearing Transcripts, attached as Appendix-Bj. The trial
court denied counsel's motion to withdraw without Petitioner being given an
opportunity to plead his case for his request for substitution of counsel.
Petitioner asserts that he has the right to be personally present at "all
stages" of his criminal proceedings that is critical to its outcome if his
presence would contribute to the fairness of the procedure.
See Snyder v.
Massechuettes, 291 U.S. 97, 105-106 (1934); Kentucky v. Stincer, 482 U.S. 730, 745
(1987); See also People v. Medcoff, 344 MICH 105 (1955), overruled on other
grounds, People v. Morgan, 400 MICH 527 (1977); People v. Russell, 471 MICH 182,
187 (2004).
Petitioner Miles-El had a constitutional right to be present at the January 28,
1994, hearing held on counsel's motion to withdraw under the due process clause of
the Fourteenth Amendment and Article 1, §17 of the Michigan Constitution, of 1963.
That right was violated by his absence from the January 28, 1994 hearing.
Petitioner has a right to be present in his own person whenever his presence has a
relation, reasonably substantial to the fairness of his opportunity to defend
against the charge." See Snyder, supra, Id. at 105-106.

REASONS FOR GRANTING THE WRIT (Page 7 of

, continuation)

Petitioner claims that it does not appear that Michigan Courts have addressed
the question: of Whether a Criminal Defendant has a Constitutional right to be
Present when the trial court considers and rules on defense counsel s motion to
withdraw from the case. Specifically a ‘'Capital Case/1
It is Bedrock Law that a defendant is guaranteed the right to be present at any
stage of the criminal proceeding that is critical to its outcome of his presence
would contribute to the fairness of the procedure. See Kentucky v. Stincer, supra
482 U.S. at 745; United States v. Ganon 470 U.S. 522, 526, 105 S.Ct. 1482
(1985) (Per Curiam) ("A defendant has a due process right to be present at a
proceeding 'whenever his presence has a relation, reasonably substantial to the
fullness of his opportunity to defend against the charge. ) (Quoting Snyder v.
Massechuettes, supra, 291 UPS’’ at 106)). The right to be present protects a
defendant's right to confront witnesses and his rights under the due process
clause of the Fifth and Fourteenth Amendment. Gagnon, supra, 470 UPSP at 526.
In Michigan a criminal defendant has both a common law and a constitutional
right to be present at all critical stages of the proceedings or trial. Mich
Const. 1963, Art. 1, §17; U.S. Const. AM XIV. These rights are implemented by the
Due Process Clause and Vindicates two primary interests: (1) Enabling the
defendant to assist in the preparation of a defense, and (2) Ensuring the
appearance of fairness in the execution of justice. See Pinky v State, 350 MD
201, 209 (1998).
The question that this Honorable Court must decide is whether, in the case
before you, Petitioner Miles-El was deprived of his right to be present at a
critical stage of the criminal proceedings, in particular the January 28, 1994
hearing on his attorney's motion to withdraw. Federal courts and sister courts
have considered this issue. Most of these courts have held that, ordinarily
.
, a
defendant does not have a constitutional right to be present when the court rules
on a motion to withdraw as counsel or meet with defense counsel to discuss
withdrawl. When the only issue to be determined is the withdrawl of counsel, the
matter arises pre-trial and no substantive matters are discussed or considered;
the stage of the proceeding is not considered critical.” See Hale v. Gibson, 227
F.3d 1298, 1311-1312 (10th Cir. 2000); Green v. Johnson, 116 F.3d 1115 (5th Cir.
1997); Bradley v. Henry, 510 F.3d 1093 (9th Cir); People v. Cardenas, 411 P.3d
956.
In Hale v. Gibson, supra the United States Court of Appeals for the Tenth
Circuit held, that a meeting outside the presence of the defendant between defense
counsel and the court regarding defense counsel's application to withdraw did not
violate the defendant's constitutional right to be present.” The defendant was
not notified of or permitted to attend the hearing, but the court noted mat there
was no evidence that the court and defense counsel discussed the substantive
charges against the defendant and/or the truth of the underlying conflict between
defense counsel and the defendant. Id. at 1311-1312. The meeting did not impinge
on the (defendant’s; opportunity to defend against the charges against him or
affect the fairness of the entire trial" and therefore did not constitute a
constitutional violation. Id. at 1312.
Similarly in United States v. Oles, 994 F.2d 1519 (10th Cir. 1993), the Court
of Appeals for the Tenth Circuit held: that defendant's absence from a preliminary
hearing where the trial court considered whether appointed counsel would withdraw
in favor of potential retained counsel did not violate the defendant s due process

REASONS FOR GRANTING THE WRIT (Page 8 of 8, continued)

rights (a) because no substantive matters relating to the charges pending against
the defendants were discussed and (b) because the defendant did not "Establish"
his presence would have contributed to the fairness of the trial. Id. at 1525.
In contrast, the United States Court of Appeals for the Ninth Circuit held in
Bradley v. Henry, 510 F.3d 1093, 1097-98 (9th Cir. 2007): That a defendants
rights were violated when he was excluded from a meeting between defense counsel
and the trial judge at which the judge concluded that the defendant was unable to
pay defense counsel and appointed new counsel instead. The court concluded that
"Due Process does not permit a judge to decide such a question "without hearing
the affected party." Id. at 1098.
State courts that have also considered, this issue have articulated two
approaches to determining when a stage of trial is critical and the defendant’s
right to be present is implicated. The Mississippi Supreme Court advanced a caseby-case approach. See Smith v. State, 724 So.2d 280,310-312 (Miss 1998). In
Smith, a Capital Case, the defendant was not present at a pre-trial hearing on a
constitutional motion at which the court allowed the defendant's appointed counsel
to withdraw in place of his privately retained attorney. Id. at 310. The court
held that the defendant’s constitutional right to be present was not violated
because counsel's motion was made well before trial and defense counsel "made no
allegations against the defendant which the defendant was entitled to defend." Id.
at 312.
In contrast, the Colorado Court of Appeals held that a defendant's presence at
a hearing on Defense Counsel's Motion to Withdraw was required based upon a
reading of Colorado Rule of Criminal Procedure 44(d). See People v. Gardenas, 411
P.3d 956, 961-963 (Colo App 2015)( Defense counsel sought to withdraw because of
irreconcilable differences of opinion with the defendant)!1
Petitioner contends that the Court should issue the Writ of Certiorari to resolve
the Split Amongst the Federal Circuit Courts and the State Courts on the Question:
Whether a criminal defendant has a constitutional right to be present when the
trial court^considers and rules on defense counsel's motion to withdraw from the
case.
In Hicks v. Oklahoma, 447 U.S. 343, 100 S.Ct. 2227 (1980), This Court has held:
"If a state court system arbitrarily withholds the benefit of a state rule
of law from a criminal defendant, Due Process of Law is denied. If a state
court system treats similarly situated criminal defendants differently,
equal protection of law is denied. U.S. Const. Amend XIV. That the state
defendant had a Federal Constitutional Due Process Right Not to be Deprived
of his Liberty, except in accordance with the laws of the state, and that
Federal Right was violated when s tate "rules applied to others were not
applied to Hicks. Id. 447 U.S. at 346.
It is argued that all that is involved in this case is the Denial of a
Procedural right of exclusively state concern.
Where, however a state has
provided for the imposition of criminal punishment in the discretion of the trial
jury. It is not correct to say that the Petitioner's interest in the exercise of
that discretion is merely a matter of state procedural law. The Petitioner in
such a case has a substantial and legitimate expectation that he will be deprived
of his liberty only to the extent determined by the jury in the exercise of its
statutory discreticn and that liberty interest is one that the 14th Aiaxheit preserves against
arbitrary deprivations by the state.

Petitioner argues to allow his Conviction and Capital Sentence to Stand without
Due Process of Law and the State uourt judgments to stand without ANY STAtk uuukt
Affording Petitioner Miles-El an Evidentiary Hearing and Affording Him an
tJpportunity to be Heard is a "miscarriage of justice” and offends the Due Process
and Equal Protection Clause and the Supremacy Clause under Article VI of1 the
United States Constitution and makes Petitioner's entire adversarial trial and
appellate process, and results unreliable because his conviction and sentence was
obtained in violation of the Due Process Clause. To
Allow
Petitioner's
conviction, sentence and the state court judgments on to remain and stand would in
effect insulate the state trial and appellate courts and trial and appellate
counsels from review for Constitutional violations, Plain and Structural Errors,
denial of a Fair Trial, Denial of the Right to Counsel; For the Denial of the
Effective Assistance of Counsel at trial; and Deficient and Inadequate
representation. In addition, it would be contradictory not only to decisions of
other state courts and other federal circuit courts, but to the Trend of this
Court to Ensure criminal defendants (like Petitioner) is not deprived of their
life and liberty without due process of law; Ensure a Fair Trial; Ensure
evidentiary hearings; adequate assistance of counsel; ensure the right to counsel;
the right to conflict free representation and an adequate opportunity to be heard.
CONCLUSION

For the foregoing reasons, Petitioner respectfully requests that the Petition For
a Writ of Certiorari be granted or in the alternative remand this case back to the
state courts for a hearing and determination to determine if Petitoner has been
deprived of his Life and Liberty without Due Process of Law; the Right to Counsel.
The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date: & "

~~ <3i

I

